                              CLOSEOUT of MW@GW-
                                                r\Y"r20'30 3




This case was initiated in January 1999 after receiving a call from a complainant, a
former Ph.D student' who made several allegations against her former Ph.D. advisor,
the ~ u b j e c t .She
                   ~ alleged the following against the subject and the university:

(1) inadequate laboratory facilities and research opportunities for graduate students
    and false and misleading statements about the university's research facilities;
(2) unethical dismissal of her from a research lab without cause and not allowing her
    access to her research results, laboratory notebooks, personal property, etc.; and
(3) violation of biohazard regulations in the subject's laboratory resulting in the death
    of a graduate student.

We found no evidence of NSF financial support for complainant during her period of
graduate study at the university. The complainant thought NSF had funded her
research,' but her name was not included on a list of individuals who were paid under
the grant provided by the university. The subject has never received any NSF awards.
Therefore, NSF has no jurisdiction over the controversy.

Because of the alleged potential risks to human health, we informed relevant NSF
program staff4 of the biohazard allegations. We also learned that appropriate
university officials were already aware of this allegation. This issue has been
sufficiently raised with the appropriate people.

Therefore, this inquiry is closed and no further action will be taken on this case.




cc: Integrity, IG




1
2
       [Footnotes Redacted]
3
